Exhibit B

Case: 18-2273

Document: 37

Filed: 03/04/2019

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
March 4, 2019
Before
FRANK H. EASTERBROOK, Circuit Judge
AMY C. BARRETT, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 18-2273
TRUSTEES OF THE SUBURBAN
TEAMSTERS OF NORTHERN
ILLINOIS PENSION FUND,
Plaintiff-Appellee,

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 1:15-cv-10323

v.
THE E COMPANY, a dissolved Illinois
Corporation, et al.,
Defendants-Appellants.

Thomas M. Durkin,
Judge.

ORDER
Defendants-appellants filed a petition for rehearing and rehearing en banc on
February 12, 2019. No judge in regular active service has requested a vote on the
petition for rehearing en banc, and all members of the original panel have voted to deny
panel rehearing. The petition for rehearing and rehearing en banc is therefore DENIED.

